No.

IN THE

Supreme Court of tfje fflnttetn l§>tate£
NICOLE BARONE
Petitioner,
v.
WELLS FARGO BANK N.A.,
Respondent.

On Petition for a Writ of Certiorari to the
Florida Fourth District Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Nicole Barone
PO Box 5193
Lighthouse Point, FL 33074
954-644-9900
Pro Se Petitioner

QUESTIONS PRESENTED
This Court directs all courts that preventing man­
ifest injustice and preserving the public’s trust in the
legal system are of upmost importance. Equally import­
ant is the proper adjudication of matters involving the
U.S. Government, which are exclusive to this Court and
its federal courts byway of the U.S. Constitution. But
as witnessed herein and all too often, state courts have
improperly misadjudicated the exclusive federal claims
within millions of American’s unlawful foreclosures,
many by wrongdoer and unlawful foreclosure predator
Wells Fargo. It is undeniable the U.S. Government is
the real party in interest of millions of Americans un­
lawful foreclosures thru its financial agent Fannie Mae
as confirmed within Treasury documents and confirm­
ed by Wells Fargo in filings herein. After a decade of
defending her family’s constitutional rights in multiple
federal and state courts, along with countless stories
from American victims it is clear, manifest injustice,
doing the right thing and upholding the law are not
priority over further concealment of numerous unlaw­
ful actions that ultimately financially benefit the U.S.
Government. So, taxpayers are liable for millions of un­
lawful foreclosures removing countless American fam­
ilies from their constitutionally protected homes byway
of the Greatest mass fraud and coverup in history. This
case raises vital constitutional issues over the govern­
ment’s direct financial interest in millions of unlawful
foreclosures, securities laws, Constitutional property
rights, foreclosure and modification fraud, standing
and void judgements. This case raises issues of proper
adjudication and enforcement of FL laws that have all­
owed the government/taxpayers to be in possession of a
tainted unlawful and void title to the Barone’s home.
Thus, the questions presented are:

11

1. Whether U.S. Government’s wrongful possession
of a tainted, unlawful void title due to clear violations
of federal and Florida laws, including criminal Tres­
passing, Breaking & Entering, Changing Locks to lock
the Barone’s out of their home, Destruction of Property
and posting unlawful notices on behalf of the govern­
ment & its agent is acceptable to this High Court?
2. Whether U.S. Government’s undeniable exclusive
benefit from millions of unlawful foreclosures thru fin­
ancial agent Fannie Mae, subject it to federal jurisdic­
tion and property “takings” clause of the Constitution?
3. Whether common law, the U.C.C., prior holdings
of this Court and the FL Supreme Court prohibit Wells
Fargo and third parties from initiating foreclosures
when they are not the true owner of the debt owed and
therefore have not sustained financial injury?
4. Whether selling and/or pledging millions of homeowners’ property as collateral numerous times without
consent and disclosure thru RMBS securitizations and
rehypothecations of alleged mortgage notes is unlawful,
unconstitutional and violate SEC securities laws and
NEMO DAT QUOD NON HABET? And whether the
alleged mortgages are in fact securities transactions?
5. Whether the appeals court violated Cares Act Sec­
tions 4022 & 4024 prohibiting furthering foreclosures
and evictions by unfairly dismissing the appeal with
prejudice? And whether its false claims of frivolous and
threat of sanctions on valid federal claims exclusive to
this Supreme Court must be immediately reversed?

Ill

PARTIES TO THE PROCEEDING
Petitioner, Nicole Barone was defendant in Circuit
Court, and appellant in the Appeals Court.
Respondent, Wells Fargo Bank N.A. was a party
throughout litigation. Wells Fargo is alleged servicer
for U.S. Government thru its financial agent FNMA.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corp­
oration, has a parent corporation or shares held by a
publicly traded company.
TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED....................................

1

PARTIES TO THE PROCEEDING.......................

m

RULE 29.6 STATEMENT.......................................

in

TABLE OF AUTHORITIES....................................

IV

PETITION FOR A WRIT OF CERTIORARI.........

1

DECISIONS BELOW..............................................

1

JURISDICTION......................................................

1

CONSTITUTIONAL, STATUATORY & RULING
PROVISIONS INVOLVED......................................

1

INTRODUCTION....................................................

2

STATEMENT OF THE CASE...............................

5

REASONS FOR GRANTING THE WRIT

15

I. This Court Should Grant Certiorari To Reverse
The Wrongful Actions In Issuing A Tainted
Unlawful Void Title To The Government Due To
Criminal Acts Of Trespassing, Breaking &

IV

II. Entering, Changing Locks, Destruction Of
Property & Posting Unlawful Notices And For
Unfairly Dismissing The Appeal With Prejudice
During The Unprecedented Covid-19 Crisis In
Contrast To Cares Act Sections 4022 & 4024 And
16
With Serious Family Medical Issues
III.This Court Should Grant Certiorari To Resolve
The Vital Issue Of Government’s Undeniable
Exclusive Benefit & Involvement In Millions of
Americans Unlawful Foreclosures Thru Its Fin­
ancial Agent Fannie Mae Warranting Exclusive
Federal Jurisdiction Under Article III And Fed­
18
eral Statute 28 U.S.C. § 1345
IV. This Court Should Grant Certiorari To Address
The Vital Flaws In Wells Fargo & Third Parties
Unlawfully Initiating Foreclosures & Wrongfully
Receiving Benefits Therefrom In Violation Of
Common Law, The U.C.C., Prior Holdings Of
20
This High Court & FI High Court
V. This Court Should Grant Certiorari To Address
Violations Of SEC Securities Laws & NEMO DAT
QUOD NON HABET With Numerous Sales &/or
Pledges Of Americans Homes Without Their Con­
sent, Knowledge or Benefit And Address The Fact
These Were Premeditated Securities Transact­
ions Not Conventional Mortgages As Advised.. 26
CONCLUSION

29

APPENDIX
Rehearing Denial, Florida Fourth District Court of
App. 1
Appeals, May 29th, 2020
Dismissal with Prejudice Order, Florida
District Court of Appeals, April 27th, 2020

Fourth
App. 2

Non-opinioned PCA Order, Florida Fourth District
App. 3
Court of Appeals, January 2nd, 2020

V

Threat of Sanctions Order, Florida Fourth District
App. 4
Court of Appeals, January 2nd, 2020
Denial of Objection to Sale Order, 17th Judicial Circuit
Court Broward County, September 25th, 2019....App. 5
TABLE OF AUTHORITIES
CASES
Balch v. LaSalle Bank, N.A.,
171 So. 3d 207, 209 (FLA. 4th DCA 2015)

Page(s)
22

Bankers Trust (Delaware) v. 236 Beltway Inv.,
865 F. Supp. 1186, 1195 (E.D. Va. 1994) .............. 21
Biddle v. State Beverage Dept.,
187 So. 2d 65, 67 (Fla. 4th DCA 1966)................... 24
Borden v. East-European Ins. Co.,
921 So. 2d 587, 595 (Fla. 2006) ............................... 22
Boyd v. Wells Fargo Bank, N.A.,
143 So. 3d 1128 (Fla. 4th DCA 2014)..................... 24
Bulloch v. United States, 763 F.2d 1115, 1121
(10th Cir. 1985) .............................................................. 13
Carapezza v. Pate,
143 So. 2d 346, 347 (Fla. 3d DCA 1962) ................. 26
Carpenter v. Longan,
83 U.S. 271 (1872)........................................................ 25
Dept, of Transportation v. Assoc, of Amer. Railroads,
135 S. Ct. 1225 (2015).................................................. 19
Elston/Leetsdale, LLC v. CWCapital Asset Mgmt. LLC,
87 So. 3d 14 (Fla. 4th DCA 2012)......................... 23,24
Hollingsworth v. Perry, 133 S. Ct. 2652 (2013).....

19

IndyMac Fed. Bank FSB v. Hagan,
104 So.3d 1232, 1236-1237 (Fla. 3d DCA 2012)......3
In re Phillips,

491 B.R. 255, 263 (Bankr. D. Nev. 2013)

21

VI

KPMG LLPv. Cocchi, 565 U.S. 18, 19 (2011)......

1

Kuehlman v. Bank of America,
177 So3d 1282 (Fla.5th DCA 2015)....................

7

Kumar Corp. v. Nopal Lines, Ltd.,
462 So. 2d at 1185..................................................

24

Lizio v. McCullom,
36 So. 3d 927, 929 (Fla. 4th DCA 2010)........... 25,26
Loan Co. v. Smith,
155 So. 2d 711 (Fla. 1st DCA 1963) ..................
Mansfield, C. & L. M. R. Co. v. Swan,
111 U.S. 379, 382 (1884).......................................

25
4

McClean v. JPMorgan Chase Bank Nat’l Ass’n,
79 So. 3d 170, 173 (Fla. 4th DCA 2012)...........

26

Mody v. Cal. Fed. Bank,
747 So.2d 1016, 1017-18 (Fla. 3d DCA 1999) .

3

Marbury v. Madison, 5 U.S. 137 (1803)................. 18,19
Musa v. Wells Fargo Delaware Trust Company
Case No. 1D15-0937, (1st DCA, FL. Dec. 2015)

13

Nowlin v. Nationstar Mortg., LLC,
193 So.3d 1043 (2016)...........................................

7

Phelps v. Gilbreth,
68 So. 2d 360 (Fla. 1953) ....................................

25

Ruhrgas AG v. Marathon Oil Co. et al.,
526 U.S. 574 (1999)...............................................

4

Simpkins v Wells Fargo Bank, N.A.,
2013 WL 4510166, at *7 (S.D. Ill. Aug 26, 2013)

8

Smith v. Kleiser, 91 Fla. 84 (Fla. 1926)...................

20

State v. Goode,
830 So. 2d 817, 824 (Fla. 2002) ............................

22

Vll

Steel Co. v. Citizens for Better Environment,
523 U.S. 83, at 94 (1998)..............................

4

Trans Aero Inc. v. LaFuerga Area Boliviana,
24 F.3d 457 (2“<* Cir. 1994)...........................

13

United States v. Texas, 143 U.S. 621 (1892)..

18

Val. Forge Chris. Coll. v. Arner. Utd. for Sep. of Church
& State, Inc., 454 U.S. 464, 474 (1982)
20
Verizzo v. Bank of New York,
28 So. 3d 976, 978 (Fla. 2d DCA 2010)
CONSTITUTIONAL
PROVISIONS

AND

26

STATUATORY

Fla. Stat. § 45.031(5) ...

1,3,14,16

Fla. Stat. § 673.2011....

21

Fla. Stat. § 673.2031(4)

21

U.S. Const, amend. V, cl. 3 & 4...

2

U.S. Const, amend. XIV, §1, cl. 2

2

U.S. Const. Article III, § 2, cl. 1..

2

U.S. Const. Article VI, cl. 2.........

2

15 U.S.C. § 1692, et seq.................

5

28 U.S.C. § 1257(a) ......................

1

28 U.S.C. § 1345.............................

19

28 U.S.C. § 1446.............................

12-14

RULES
17 C.F.R § 240....

27

Fed. R. Civ. P. 17

20

Fed. R. Civ. P. 19

20

vm
FI. R. Civ. P 1.210(a)

23,24

OTHER AUTHORITIES
Administrative Order 2011-13-Civ....................

6

Cares Act Sections 4022- 4024...........................

17

FDIC Sec. 10.1 Suspicious Activity & Criminal
Violations..............................................................

6

FNMA Servicing Guide, Part I, Ch. 2, Sec. 202.06.... 22
Neil Barofsky, ex- S.I.G. for TARP, book, BAILOUT,
Ch. 8, Foaming the Runway.........

7

NEMO DAT QUOD NON HABET

28

Re al-Party-In- Intere st- Doctrine ...

20

Restatement(Third) of Agency §1.01 cmt.f (1)(2006).. 19
Securities Exchange Act of 1934§ 10(b) ...

27

Uniform Commercial Code UCC Article 3

21

1

PETITION FOR A WRIT OF CERTIORARI
Nicole Barone respectfully petitions for a Writ of
Certiorari to review the order of Florida Fourth District
Court of Appeals.
DECISIONS BELOW
The rehearing order of Florida Fourth District Court
of Appeals (App. 1), dismissal with prejudice order
(App. 2), non-opinioned PCA order (App. 3), threatening
sanctions order (App. 4), denial of objection to sale order
of 17th Judicial Circuit Court for Broward County (App.
5) and denial to vacate judgement order (App. 7) are
attached hereto.
JURISDICTION
The Florida Fourth District Court of Appeals denial
of rehearing order was entered on May 29th, 2020. The
dismissal with prejudice order was entered on April
27th, 2020. The non-opinioned PCA and order wrong­
fully claiming the undeniable U.S. Government invol­
vement frivolous while egregiously threatening san­
ctions for such federal claims were entered on January
2nd, 2020. The denial of objection order of 17th Judicial
Circuit Court Broward County was entered on Sep­
tember 25th, 2019. This Court’s jurisdiction rests on 28
U.S.C. § 1257(a), “the highest court of [the] State in
which a decision could be had.” See, e.g., KPMG LLP v.
Cocchi, 565 U.S. 18, 19 (2011) (per curiam).
CONSTITUTIONAL, STATUATORY & RULING
PROVISIONS INVOLVED
FI. Stat. § 45.031(5) CERTIFICATE OF TITLE. -If
no objections to the sale are filed within 10 days after

2

filing the certificate of sale, the clerk shall file a
certificate of title and serve a copy of it on each party...
U.S. Const, amend. V, cl. 3 & 4, state: “...nor be
deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.” Accordingly,
U.S. Const, amend. XIV, §1, cl. 2, provides in part: “nor
shall any State deprive any person of life, liberty, or
property, without due process of law.”
U.S. Const. Article III, § 2, cl. 1: “The judicial Power
shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States,
and Treaties made, or which shall be made, under their
Authority...to Controversies to which the United States
shall be a Party...”. Concurring, 28 U.S.C. § 1345
states: “the district courts shall have original
jurisdiction of all civil actions, suits or proceedings
commenced by the United States, or by any agency or
officer thereof expressly authorized to sue by Act of
Congress.” (June 25, 1948, ch. 646, 62 Stat._933.).
U.S. Const, art. VI, cl. 2: “the Laws of the United
States . . . shall be the supreme Law of the Land; and
the Judges in every State shall be bound thereby, any
Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.”
INTRODUCTION
The Barone’s are in a decade long fight to defend
their constitutional rights against known wrongdoer
and unlawful foreclosure predator Wells Fargo. The cu­
lmination of these years of numerous unlawful acts
along with improper adjudication, ignoring the facts of
law and mishandling of their multiple cases and federal

3

claims have led to the current situation in which the
government is in unlawful possession of a tainted, un­
lawful and void title to their home. The title was issued
even though the government and its financial agent
Fannie were in direct violation of Fla. Stat. § 45.031(5),
as Wells Fargo’s and its representatives clearly for­
warded the Barone’s file to Fannie Mae only a couple of
days after the unlawful sale and a week prior to the 10
day requirement of § 45.031(5). This obvious violation
is inexcusable, as these parties are both very familiar
with FL law as both have been involved in countless
foreclosures in the state. So, Wells Fargo’s further deli­
berate harassment of the Barone’s put the government
in the position of liability for the criminal acts of Tres­
passing, Breaking & Entering, Changing Locks, Des­
truction of Property and posting unlawful notices.
Fannie Mae advised that it hires and depends on com­
panies like Wells Fargo to know and adhere to the local
laws. Additionally, because of the extent that the Bar­
one’s have brought this case into the public domain,
there was a very noticeable lack of bidders for Wells
Fargo’s unlawful sale, which under FI law was invalid,
as it clearly was a Grossly Inadequate bid of $7,200.00
for a roughly $400,000.00 property.1 This is the defin­
ition of inadequate, but the judge ignored it just like she
irresponsibly claimed hearsay when showed pictures
and advised of the criminal acts to the Barone’s home
noted above. More concerning is the fact that the FI 4th
DCA ignored these issues like it has with others pre1 See IndyMac Fed. Bank FSB v. Hagan, 104 So.3d 1232, 12361237 (Fla. 3d DCA 2012) (confirming that it is well settled that “[i]n
order to vacate a foreclosure sale, the trial court must find: (1) that
the foreclosure sale bid was grossly or startlingly inadequate; and
(2) that the inadequacy of the bid resulted from some mistake,
fraud or other irregularity in the sale.”) (quoting Mody v. Cal. Fed.
Bank, 747 So.2d 1016, 1017-18 (Fla. 3d DCA 1999)) (emphasis
added).

4
viously, but this time it decided to wrongfully threaten
sanctions for valid federal and state claims. The state
courts have not preferred any legal opinions to validate
their decisions. Most importantly, this all occurred
while the state courts clearly lacked jurisdiction of this
matter as proper jurisdiction was exclusive to this Sup­
reme Court and its federal district courts. See Man­
sfield, C. & L. M. R. Co. v. Swan, 111 U.S. 379, 382
(1884) "The requirement that jurisdiction be estab­
lished as a threshold matter is 'inflexible and without
exception,'
for "jurisdiction is power to declare the
law," and " 'without jurisdiction the court cannot pro­
ceed at all in any cause,'" Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, at 94 (1998); Ruhrgas AG v.
Marathon Oil Co. et al., 526 U.S. 574 (1999).
These issues are not just unique to this case, as mil­
lions of Americans have suffered from these unlawful
foreclosures and so many, especially those who decided
to defend their family’s rights have horror stories of
retaliation and harassment. The facts are clear and
very well known, Wells Fargo prayed on families like
herein with its unlawful predatory tactics in misleading
with deliberate modification fraud in order to lure un­
suspecting homeowners into a false trust which would
eventually end with a wrongful foreclosure judgements
and unlawful void titles that will remain void as no ju­
dge or court can make valid that which is void.
The severity of the unlawful acts herein forced Fan­
nie Mae, unbeknownst to Wells Fargo, to request a set­
tlement offer from the Barone’s thru its representative
who was part of the criminal Trespassing and acts
noted above. But once the Barone’s notified the court of
this pending action, Wells Fargo declined the very reas­
onable offer for the extent of the damages done to Mrs.

5

Barone and her family over the past decade, and ignoreed requests to advise if Fannie Mae was advised and/or
declined the offer, or if it was solely Wells Fargo. Even
after it was advised that Fannie approached the Bar­
one’s to settle, Wells Fargo’s response was to abruptly
inform that they are to send all communications thru
its elite counsel. The Barone’s have been more than wil­
ling to settle these issues on very favorable terms for
the government, Fannie and Wells Fargo, given the cir­
cumstances, only to be ignored, including by the courts
when conferences were requested. The courts along
with Wells Fargo have shown no willingness to settle
these numerous unlawful acts. The government’s fin­
ancial agent has been the only party to act responsibly
in willing to protect the government’s image and inter­
ests herein.
This High Court can clearly see that the issues here­
in need to be resolved if not for all parties involved, at
a minimum the government, its financial agent and the
sanctity of the courts that have been marred by their
collective actions and non-actions herein. This Court
shoulders a heavy burden, if the issues herein are not
rectified for millions of American families, there is a
wave of millions more imminent, due to the current
crisis caused by the coronavirus pandemic.
STATEMENT OF THE CASE
Most recently the unlawful actions noted above have
occurred as part of a culmination of the numerous un­
lawful acts over the past decade. This foreclosure action
was wrongfully initiated in state Court by Wells Fargo
for the government’s exclusive benefit thru its financial
agent Fannie Mae. Wells Fargo violated the Notice of
Fair Debt Collections Practices Act, 15 U.S.C § 1692, et

6

seq. by falsely asserting it was the owner of the debt.
Wells Fargo failed to satisfy due process, as it pur­
ported service with questionable Affidavits of Lost
Original Summonses. The affidavits were filed almost
two months after the alleged service, and a few days
after Wells Fargo erred in filing a default motion. Wells
Fargo allegedly utilized ProVest LLC, who was publicly
reprimanded for its fraudulent practices by consent
order with the FL Atty. Gen. and dubbed the “sewer
service” firm. Mrs. Barone’s mediation request went
unanswered, but a questionable notice of borrower non­
participation was filed a few days after its default
filing. Mrs. Barone does not recall refusing mediation,
as she filed the request. Wells Fargo claimed man­
datory mediation was not applicable, violating Admin­
istrative Order 2011-13-Civ.
Wells Fargo enacted an unauthorized bank account
withdrawal, and it failed to file the Barone’s fraud com­
plaint in violation of FDIC Section 10.1 Suspicious
Activity and Criminal Violations. Wells Fargo admitted
days later, it committed the unauthorized transaction,
and attempted to conceal the unlawful act as a col­
lection action. The Barone’s attorney, who throughout
the proceedings lead them to believe their defense was
being handled properly, when it was not, advised that
the foreclosure court wouldn’t hear the unauthorized
withdrawal at trial, and they would lose. This was part
of Wells Fargo’s wrongful 48-hour ultimatum, misrep­
resenting and inducing judgement for a 4-6 month
extension to file for modification. The Barone’s never
signed a final judgement. Wells Fargo. allowed the
foreclosure Court to operate without mandatory voice
recorders or court reporters for homeowners’ due
process rights protection. This all occurred during the
infamous Rocket-Docket.

7

Wells Fargo committed Dual-tracking which was
highly criticized by congress and restricted by the Nat­
ional Mortgage Settlement. Wells Fargo wrongfully
advised that their payments needed to be in the rears
in order to file for HAMP, and then dragged the process
out for months by not supplying any updates. This is
confirmed by former S.I.G. TARP, Neil Barofsky’s book
BAIL-OUT, Chapter 8, Foaming the Runway.2 See also
Kuehlman v. Bank of America, 177 So3d 1282 (Fla.5th
DCA 2015); Nowlin v. Nationstar Mortg., LLC, 193
So.3d 1043 (2016). Wells Fargo wrongfully alleged Mrs.
Barone declined modification, sometime in July 2012.
In a 2012 article, the US Treasury’s Making Home
Affordable Report suggested Wells Fargo was denying
HAMP modifications to seek “lucrative fees on delin­
quent loans”, and it only provided 9,761 HAMP trial
modifications out of the 110,807 that it was required to.
Wells Fargo was complying with its legal obligations
under HAMP less than 10% of the time. Wells Fargo
utilized this scheme to force its customers into default,
so it could collect on its lucrative and unjust default
derivatives and policies. Later in the process, Wells
Fargo attempted to Bait & Switch them from a HAMP
modification that was substantially more beneficial to
them, into a secondary mod that clearly benefitted
2 - “One particularly pernicious type of abuse was that servicers
would direct borrowers who were current on their mortgages to
start skipping payments, telling them that they would allow them
to qualify for a HAMP modification. The servicers thereby racked
up more late fees, and meanwhile many of the borrowers might
have been entitled to participate in HAMP even if they had never
missed a payment. Those led to some of the most heartbreaking
cases. Homeowners who might have been able to ride out the crisis
instead ended up in long trial modifications, after which the
servicers would deny them a permanent modification and then send
them an enormous “deficiency”bill.”(emphasis added). -

8

Wells Fargo and its “Investor”, who was initially con­
cealed and later admitted to being FNMA. It concealed
that the much higher “Investor” mod payment was due
to forced Lender Placed Insurance (LPI). Wells Fargo
advised that they MUST pay for the LPI to qualify for
the trial payments, and if they wanted to get their own
policies they needed to decline the offer and start over
by resubmitting another package. It advised this was
FNMA’s guidelines, and it was adhering, but it failed to
substantiate. The Barone’s submitted their own flood
policy to be paid and charged to escrow, in accordance
with Wells Fargo’s written guidance, but it failed to
accept the policy in favor of its own LPI policy with
more than a 300% higher premium. Soon after they
complained over the LPI policies, their property near
the intracoastal and canals, was questionably removed
as a mandatory flood zone.
Shortly thereafter Wells Fargo settled claims it was
receiving secret incentives and/or ‘kickbacks” from LPI
policies, at the detriment of its entrusting customers.
Wells Fargo utilized back door deals with LPI insurers
that led to manipulated premiums and extensive con­
trol over LPI policies it charged to the Barone’s for yea­
rs. See Simpkins u Wells Fargo Bank, N.A., 2013 WL
4510166, at *7 (S.D. Ill. Aug 26, 2013).
Wells Fargo’s Escalation Department responded to
their complaints with excuses for its wrongdoings, pro­
vided incorrect HAMP calculations, and blatantly avo­
ided the unauthorized withdrawal and an unauthorized
credit application that occurred a few weeks prior.
Wells Fargo claimed it couldn’t find any information.
To conceal its wrongful acts, its response demanded the
Barone’s subpoena documents. Since then, it has av­
oided multiple RFPs within foreclosure, provided only

9
calculated foreclosure documents in Mr. Barone’s state
RICO action and wrongfully influenced dismissals in
his Federal RICO action to avoid discovery.3 Wells
Fargo unethically attempted to discredit Mr. Barone by
trying to self-label him a conspiracy theorist within its
motion to dismiss his original state RICO complaint, for
unlawful acts it has since been forced to publicly ack­
nowledge and/or admit.
Wells Fargo allowed former peer, general magi­
strate Eiss, to be involved and handle its questionable
strike of the RFP. Wells Fargo allowed Judge Rosenthal
to handle the RFP while on demotion during a criminal
investigation. Her actions in handling the RFP are
highly-questionable. She was later investigated for
ethics violations and retired after the FL High Court
revoked her sweetheart deal over public outrage.
Wells Fargo has filed documents containing false
statements, including motions to cancel sales. It failed
to serve the Barone’s a notice of sale filing by removing
them from electronic service. It wrongfully influenced
the Court to excuse its service failure by utilizing
Hurricane Matthew, which did not affect their pro­
perty. Moreover, Wells Fargo regularly set hearings
without contacting them. It’s counsel Mr. Hall, made
perjurious statements to the Court, they advised of this
in a 2015 email, and soon after he was no longer with
the firm, only to return later. More concerning, Wells
Fargo ignored a conciliation order for months, while
multiple judges asked if there was a lawsuit coming for

3 Cases were brought for Wells Fargo’s numerous wrongful acts
against them. Federal RICO action: Barone v. Wells Fargo Bank
N.A., 16-16079-CC, 16-cv-60960-WPD; State RICO action: Barone
v. Wells Fargo Bank N.A., CACE15021684, 4th DCA 4D17-2531.

10
the issues brought to the Court, but no corrective act­
ions were taken.
For years, Wells Fargo allowed inspectors to tres­
pass on their property without prior consent, prompting
no trespassing notices. Wells Fargo’s inspectors har­
assed Mrs. Barone’s mother for some time before her
sudden death a few years ago. They would bang on her
door as early as 7:30 am and late at night advising
Wells Fargo sent them to check occupancy. Wells Fargo
wrongfully attempted to coerce Mrs. Barone’s mother
and father into submitting a statement blaming the
Barone’s for their financial situation to assist approval
of their modification. A few months before Mr. Barone
filed his state RICO action, they sent an email to Wells
Fargo’s Executive Offices, Legal Department and Bo­
ard of Directors notifying of intent to file. Wells Fargo
wrongfully forwarded their communication to the mort­
gage department. Greg Nichols responded and led Mrs.
Barone to believe he was an attorney in the legal
department, while he sarcastically downplayed the iss­
ues and tried to forestall any pending suit, but Wells
Fargo never substantiated his claim. He alleged the
Barone’s counsel participated in mediation in this case
which also has not been substantiated.
Around this time, Mrs. Barone had a questionable
encounter with her counsel and Judge Lazarus in the
courthouse, where Lazarus advised her not to file ethics
charges against Judge Rosenthal, but rather revisit the
RFP. She revisited the RFP and Lazarus failed to
address it. Lazarus then allowed Wells Fargo’s counsel
to play games in avoiding its non-answer to the RFP for
over a month, while lashing out at him for not making
himself available for hearings and setting and cancel­
ing others. Lazarus’ tone changed when McDonough

11

finally appeared, coincidently the day before the sale
date. While awaiting hearing, McDonough unethically
defamed the Barone’s by yelling across the courtroom
to a colleague and by sarcastically showing and dis­
cussing their file with a lawyer unconnected to the case,
while Mrs. Barone sat a few feet away. At the hearing,
Lazarus was unprepared, he had to ask for a copy of the
motions from Mrs. Barone and then immediately scroll­
ed to the back of the filing and curiously ruled a tech­
nicality against them, while brashly ignoring Wells
Fargo’s notice of sale deficiency. McDonough didn’t ha­
ve to say a word. This forced her to file bankruptcy to
protect their property from Wells Fargo.
Wells Fargo’s issues continued when she filed to re­
open her bankruptcy. Upon notice, the foreclosure Cou­
rt clerk immediately placed a stay on the case. A few
hours later, Wells Fargo filed a moot motion to cancel
the sale for the next week without mentioning the ban­
kruptcy filing. Mrs. Barone showed for the hearing from
being unable to trust Wells Fargo’s previous wro­
ngful actions. Before the hearing she advised Wells
Fargo’s new representative, the motion was moot be­
cause of her bankruptcy filing. The representative
called her office and advised Wells Fargo’s motion need­
ed to be heard. Mrs. Barone was wrongfully forced in
front of Judge Stone, who again refused to hear her
arguments. Wells Fargo never acknowledged the bank­
ruptcy and perjured the Court by asserting there must
have been a mod package submitted, when it knew this
was false. Judge Stone refuse to check the docket on the
computer in front of him and assisted Wells Fargo’s
fraud, by granting the moot motion and resetting the
sale date. A few days later, FL Atty. Gen. Pam Bondi
was notified through email and ex-U.S. Atty. Preet
Bharara by FedEx of these unlawful acts of the Court

12
and Wells Fargo, and they ignored. Mrs. Barone went
to file a motion to cancel the wrongful sale and was
advised that the clerk was unaware of what Wells Fa­
rgo was attempting, it was completely against pro­
cedure, so he recancelled the sale. He noted it all in the
computer and said that Wells Fargo was not going to be
happy with him, but he had to do the right thing.
Soon after, they filed a motion to vacate final judge­
ment and sanctions against Wells Fargo for this blatant
act of fraud on the Court. They also filed a motion for
clarification of Wells Fargo’s counsel and of the Court’s
jurisdiction over Wells Fargo prior to and post judge­
ment. Wells Fargo played games with setting the hear­
ing. At hearing, Lazarus stonewalled them when they
attempted to bring up Wells Fargo’s admitted FHA
fraud and its unauthorized account scandal. Lazarus
ignored their arguments and denied their motion. On
April 25th, Mrs. Barone attended the 2017 annual
shareholder meeting in Florida as a guest of Sr. Nora
Nash of Sisters of St. Francis. Sr. Nora was aware of
the issues and at the meeting had to stand up and ass­
ertively get Mr. Sanger and Mr. Sloan to take Mrs.
Barone’s questions, after they passed over her num­
erous times. A few weeks later May 8th, Mrs. Barone
filed to remove this action to Federal Court on the
federal jurisdiction questions. After she filed notice,
under 28 U.S.C. § 1446, the foreclosure Court no longer
had jurisdiction and should automatically stay the pro­
ceedings. The clerk wrongfully advised that only bank­
ruptcy automatically stays proceedings, which is not
what the FL 3rd DCA advises. The clerk forced her to
pay for and file a motion to cancel the sale. The clerk
wrongfully set a hearing for the next morning and
forced Mrs. Barone to return. At the May 9th Hearing,
Wells Fargo argued against the clear language of stat-

13
ute § 1446 and committed further fraud against the
Court with Lazarus’ assistance.4 Lazarus arrogantly
defied § 1446 by denying their motion and ordered the
property sold. He knowingly defied federal law. This
forced them to remove their belongings from the pro­
perty and incur unnecessary stress and costs. While
this was occurring, Sr. Nora advised she was com­
municating with Wells Fargo executives, including bo­
ard members, regarding the issues, and advised that
she wasn’t getting anywhere with them and her efforts
may be useless.
More concerning was the highly-questionable swift
remand order by the Federal Court after the sale. The
filing had close to a thousand pages to be reviewed and
the costs incurred for copies and the filing fee should
have warranted a thorough review. For some curiously
odd reason the District Court felt it necessary to push
aside its overwhelmed docket to immediately address
the removal in favor of Wells Fargo. Ironically, Wells
Fargo was at the time blatantly committing another
fraud against the Court by violating 28 U.S.C. § 1446.
Wells Fargo was well aware of its blatant violation of §
1446, See Musa v. Wells Fargo Delaware Trust
Company (Case No. ID 15-0937, 1st DCA, FL. Dec.
2015). The Barone’s filed an objection to the sale on
May 18th, and on May 19th, appealed the vacate judge­
ment and sale cancelation orders.
On May 23rd, the 4th DCA ordered to show cause for
appealability of the sale cancelation order, asserting
lack of jurisdiction to review. Her response was filed on
4 See Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985)
(fraud upon the court exists “where the judge has not performed
his judicial duties”); Trans Aero Inc. v. LaFuerga Area Boliviana,
24 F.3d 457 (2n4 Cir. 1994)

14
June 1st, included the objection to the sale and clearly
outlined the blatant 28 U.S.C. § 1446 violation. On
June 29th, the Court undermined justice by dismissing
the appeal of an obviously void order that clearly
violated § 1446. This prompted a July 13th motion for
clarification, which Wells Fargo failed to respond to,
and the 4th DCA failed to address. Mrs. Barone advised
the Court they had to summon the Broward Sherriff to
the property on June 14th, for acts of trespassing,
vandalism and theft. Over the past few months or so,
on multiple occasions a gate on the property has been
broken by forced entry. The Barone’s social media
accounts have had posts regarding Wells Fargo and this
case deleted without notice and reasoning.
On October 26th, the 4th DCA issued a non-opinioned
order, failing to address the vital jurisdiction questions
and Wells Fargo’s numerous wrongful acts, including
multiple federal violations. In 2015 while Mrs. Barone’s
mother was on hospice dying, Wells Fargo defamed
them and quashed a business deal with a family friend,
a respected and influential local businessman who had
two commercial projects with Wells Fargo at that time.
On November 22nd, she appealed to FL Supreme Co­
urt, outlining the jurisdictional issues within the no­
tice. On November 29th it was dismissed for no review
of a non-opinioned order. When it returned to the state
court the motion to vacate the judgement was denied,
the judge manipulated Mrs. Barone into not attending
the hearing in which he wrongfully reset the unlawful
sale date instead of resetting the hearing as he falsely
advised. The unlawful sale was allowed, an objection
was filed and only a few days later Fla. Stat. § 45.031(5)
was blatantly violated by the aforementioned criminal
acts. These issues were wrongfully concealed by exc-

15

uses and improper adjudication. Appeals were filed and
dismissed with prejudice and the court falsely claimed
valid federal and state claims were frivolous and threa­
tened sanctions to further conceal these unlawful acts.
REASONS FOR GRANTING THE WRIT
This petition raises vital Constitutional questions of
proper jurisdiction of the U.S. Government, its unden­
iable involvement in millions of unlawful foreclosures
thru its financial agent FNMA and multiple frauds by
Wells Fargo. These issues are of great public impor­
tance, as they have far reaching implications into the
lives of every American. Millions of state foreclosure
judgements wrongfully procured by third-parties for
the ultimate financial benefit of the government are
constitutionally void. Many of these foreclosures have
corrupted land titles, as most loans were secretly sec­
uritized, rehypothecated and hedged multiple times for
profiteering, and clear Chain of Titles were not pro­
ffered. It is likely FNMA doesn’t rightfully own the
notes to many of the wrongfully foreclosed properties,
because of these multiple undisclosed securities trans­
actions, unbeknownst to unsuspecting Americans who
were duped into believing they entered conventional
mortgage contracts when in fact they were premed­
itated securities transactions. Robo-signing and fraud­
ulent documents were utilized in attempts to fill docu­
mentary voids. The unlawful benefits syphoned from
each property by these non-legal owners calculates to
staggering amounts above what was legally owed. The
questions are ripe for review by the Court to set rightful
Constitutional precedent as to jurisdiction of the gov­
ernment and its financial agent.
The Court should therefore grant this petition to
address these serious issues.

16
I. This Court Should Grant Certiorari To Re­
verse The Wrongful Actions In Issuing A Tain­
ted Unlawful Void Title To The Government
Due To Criminal Acts Of Trespassing, Break­
ing & Entering, Changing Locks, Destruction
Of Property & Posting Unlawful Notices And
For Unfairly Dismissing The Appeal With Pre­
judice During The Unprecedented Covid-19
Crisis In Contrast To Cares Act Sections 4022 4024 And With Serious Family Medical Issues
It is completely unacceptable that thru the unlawful
acts of Well Fargo and its representatives along with
the assistance of the courts thru improper adjudication,
the U.S. Government is in possession of a tainted, un­
lawful void title to the Barone’s home by way of its fin­
ancial agent Fannie Mae. Especially because the fore­
closure judge committed deliberate fraud on the court
and Mrs. Barone to reset the unlawful sale, the unlaw­
ful sale was clearly grossly inadequate in violation of FI
law and the criminal acts of Trespassing, Breaking &
Entering, Changing Locks to lock the Barone’s out of
their home, Destruction of Property and posting of un­
lawful notices was in blatant violation of FI Stat. §
45.031(5) CERTIFICATE OF TITLE. -If no obje­
ctions to the sale are filed within 10 days after
filing the certificate of sale, the clerk shall file a
certificate of title and serve a copy of it on each
party... (bold emphasis added). These criminal acts
were orchestrated only a few days after the unlawful
sale and a week early to the § 45.031(5) requirements.
This is inexcusable as Wells Fargo and its counsel have
handled thousands of foreclosures in the state and are
very familiar with the law, and the fact that Wells
Fargo claimed it had nothing to do with it and attem­
pted to blame the government’s financial agent for the

17
unlawful acts is despicable. The government’s financial
agent depends on Wells Fargo to abide by local laws,
and Wells Fargo failed to protect the government from
these unlawful acts. This High Court must rectify these
unlawful actions and reprimand Wells Fargo.
Additionally, the 4th DCA unfairly dismissed this
action with prejudice during an unprecedented nat­
ional health crisis, in contrast to the Emergency Cares
Act Sections 4022- 4024 in which Fannie Mae and other
agents of the government are prohibited from furth­
ering foreclosures for at least 60 days until May
18th and at least 120 days for evictions, (bold em­
phasis added). It is unfair the 4th DCA held Mrs. Barone
to not being able to pay for the record because the Bro­
ward Court was closed, and was locked down due to the
virus. Additionally, she is on disability and has a com­
promised immune system so she would not have been
able to enter the courthouse even if it were open. She
was advised that she could not pay over the phone, so
how could any court directed to prevent manifest in­
justice proffer such unfairness and deliberate manifest
injustice? And during a time of national emergency?
Not to mention she advised the court of her serious me­
dical issues. Moreover, she has been dealing with her
father being diagnosed with cancer. This unfairness is
unreasonable and unacceptable in a legal system built
on and directed to prevent manifest injustice and to
foster the public’s trust in the system, most certainly
when the unfairness is furthering concealment of un­
lawful acts that have wrongfully procured a void title
in the possession of the government’s financial agent.
This High Court should grant certiorari to rectify
this unfairness to preserve the sanctity and public trust
in the legal system.

18

II. This Court Should Grant Certiorari To Re­
solve The Vital Issue Of Government’s Unden­
iable Exclusive Benefit & Involvement In Mil­
lions of Americans Unlawful Foreclosures
Thru Its Financial Agent Fannie Mae Warran­
ting Exclusive Federal Jurisdiction Under Ar­
ticle III And Federal Statute 28 U.S.C. § 1345.
Since the Financial Crisis, the government has en­
joyed exclusive financial benefit of the GSE’s, including
Fannie Mae, this is undeniable. There are Treasury
contracts that directly assert Fannie is ACTING
SOLELY AS FINANCIAL AGENT FOR THE UNI­
TED STATES,5 as well as Wells Fargo’s filing in the
4th DCA herein notes Fannie as FINANCIAL AGENT
FOR THE UNITED STATES GOVERNMENT.(bold
emphasis added). The government’s position is unden­
iably clear, it is the Real-Party-In-Interest herein and
in millions of unlawful foreclosures of Americans ho­
mes. This Court has long held the constitution and
federal law are clear that the business of the govern­
ment is the business of this Supreme Court and its
federal courts. See United States v. Texas, 143 U.S. 621
(1892), the federal judicial power exclusive to the
Supreme Court included “cases in which the United
States was a party,” (bold em-phasis added); The
Federal Court has jurisdiction and shall decide
arguments over how to interpret the Constit­
ution and federal law. (See Marbury v. Madison, 5
5 US Treasury, “Amended and Restated Commitment to Purchase
Financial Instrument and Servicer Participation Agreement”,
between Fannie Mae (acting solely as financial agent of the
Fargo,
available
at
United
States)
and
Wells
https://www.treasurv.gov/initiatives/financial-stabilitv/TARPnrograms/housing/mha/Documents Contracts Agreements/wellsf
argobankna redacted.pdf

19
U.S. 137 (1803))(bold emphasis added). Article III of the
Constitution directs the Federal Court holds exclusive
jurisdiction over any action in which the U.S. Govern­
ment is a party. Additionally, Fannie Mae is unden­
iably the financial agent of the government and as such,
28 U.S.C. § 1345 grants the Federal Court jurisdiction
over actions by the government, its agencies and off­
icers. This matter was improperly before the state cou­
rts for a decade, along with millions of foreclosures in
which Americans were wrongfully removed from their
homes to the direct financial benefit of the government.
Accordingly, these issues need to be rectified by this Hi­
gh Court to not only preserve the sanctity of the legal
system and the courts, but most importantly to pre­
serve and protect the sanctity of the U.S. Constitution
and the freedoms we as Americans are guaranteed.
Moreover, this Court made it clear in Department of
Transportation v. Association of American Railroads,
135 S. Ct. 1225 (2015) that an entity operating as Fan­
nie has, is in “practical reality” an agent for the govern­
ment. Additionally, this Court addressed agency prin­
ciple and severity of the control aspect which pretty
much outlines Fannies operations in Hollingsworth v.
Perry, 133 S. Ct. 2652 (2013). Furthermore, the govern­
ments undeniable position herein and therein millions
of Americans mortgages and unlawful foreclosures, in
which it is in Total Control of Fannie while it operates
as its financial agent solidifies the agency factor is pre­
sent.6 These vital issues of law must be rectified, most
especially with the state courts who clearly lack juris­
diction over these matters involving the government
and millions of unlawful foreclosures. Accordingly, the
e See RESTATEMENT (THIRD) OF AGENCY § 1.01 cmt. f
(1)(2006) (“An essential element of agency is the principal's right to
control the agent's actions.’).

20

state courts lacked proper jurisdiction to handle these
matters while allowing a decade of unlawful, and in
many instances despicable acts to besmudge the justice
system and courts with numerous frauds. More con­
cerning is the fact these clearly valid federal claims are
far from the 4th DCA’s misguided assertions of friv­
olous, and its baseless threat of sanctions to wrongful­
ly suppress valid federal claims, further conceal numer­
ous unlawful acts and defy this High Court’s mandated
direction to prevent manifest injustice and preserve the
public’s trust in the courts, must be rectified. Therefore,
this High Court should rectify these vital constitutional
issues to regain the public trust in the courts, govern­
ment and our inherent constitutional rights.
III. This Court Should Grant Certiorari To Addr­
ess The Vital Flaws In Wells Fargo & Third
Parties Unlawfully Initiating Foreclosures &
Wrongfully Receiving Benefits Therefrom In
Violation Of Common Law, The U.C.C., Prior
Holdings Of This High Court & FI High Court
This High Court’s holding in Valley Forge Christian
Coll. u. Americans United for Separation of Church &
State, Inc., 454 U.S. 464, 474 (1982) (“real party in
interest must assert its own legal rights and interests,
and cannot rest his claim to relief on the legal rights or
interests of third parties. ”), made it clear the real party
in interest must assert its own claims.(emphasis add­
ed). The Florida High Court concured in Smith v. Kleiser, 91 Fla. 84 (Fla. 1926) (“In a suit to foreclose a
mortgage...it should be in the name of the real owner of
the debt secured. ’9(emphasis added). The Real-PartyIn-Interest-Doctrine concurs, along with Fed. R. Civ. P
17 (“An action must be prosecuted in the name of the
real party in interest.”) (emphasis added) and Rule 19

21
which requires parties to a suit when the Court cannot
accord complete relief among existing parties. Wells
Fargo falsely presented itself to the Court as an actual
holder “designated holder” with authorization to pur­
sue this action under Article 3 of the UCC. Wells Far­
go’s purported standing as an Article 3 holder as
servicer fails as a servicer/agent can never be an article
3 holder. A servicer under Article 3 is not a “holder” of
the note because the UCC considers the principal to
be the holder when an agent is in possession of
the principal’s property. See In re Phillips, 491 B.R.
255, 263 (Bankr. D. Nev. 2013) (“Thus, a person is a
“holder” of a negotiable instrument when it is in the
physical possession of his or her agent.’), (bold em­
phasis added). See also, Bankers Trust (Delaware) v.
236 Beltway Inv., 865 F. Supp. 1186, 1195 (E.D. Va.
1994) (the UCC “sensibly recognizes that a party
has constructive poss-ession of a negotiable inst­
rument when it is held by the party’s agent...”
[internal citations omitted])(bold emphasis added). Un­
der § 673.2011, Fla. Stat. Ann., (“Negotiation always
requires a change in possession of the instrument be­
cause nobody can be a holder without possessing
the instrument, either directly or through an ag­
ent.) (bold emphasis added). Additionally, under §
673.2031(4), Fla. Stat. (“If a transferor purports to
transfer less than the entire instrument, nego­
tiation of the instrument does not occur.”), and a
party can only become an Article 3 holder by way of “ne­
gotiation”—which involves a transfer of the entire
bundle of rights in the instrument. § 673.2011, Fla.
Stat. (defining negotiation)(bold emphasis added). We­
lls Fargo may purport it has possession of the note for
the purpose of enforcing, but this is NOT a negot­
iation under Florida law and was never intended to
be. (emphasis added). Adherence to Statutes is imper-

22

ative, as “the Legislature does not intend to enact use­
less provisions, and courts should avoid readings that
would render part of a statute meaningless.” Borden v.
East-European Ins. Co., 921 So. 2d 587, 595 (Fla. 2006)
(citing State v. Goode, 830 So. 2d 817, 824 (Fla. 2002)).
In Fannie Mae Servicing Guide, Part I, Chapter 2, Sec­
tion 202.06, Note Holder Status for Legal Proceedings
Conducted in the Servicer’s Name, it advises “Fannie
Mae is at all times the owner of the mortgage no­
te, whether the note is in Fannie Mae’s portfolio
or whether owned as trustee...”, therefore there
was never any negotiation of the entire bundle of rights
as required by law, so Wells Fargo never became a hol­
der or real party in interest and failed to satisfy stan­
ding. See Batch v. LaSalle Bank, N.A., 171 So. 3d 207,
209 (FLA. 4th DCA 2015) “evidence that the note was
transferred into the trust prior to the foreclosure action
is insufficient by itself to confer standing because there
was no evidence that the indorsee had the intent
to transfer any interest to the trustee.” (bold em­
phasis added). Accordingly, Wells Fargo cannot be con­
sidered a holder under the UCC and Florida law in its
capacity as servicer, depriving it of standing and rend­
ering this action and judgement void ab initio, regard­
less if it was in possession of a properly endorsed note.
In fact, Wells Fargo is not the debt owner and cannot
legally surrender any of the alleged note owner’s rights,
nor has it suffered a financial injury. Additionally, no
proof of chain of title has been proffered, most esp­
ecially any documentation or endorsement proving Fa­
nnie Mae is even the rightful holder. A blank endorse­
ment allegedly affixed by defunct Wachovia Bank, who­
se assets were acquired by Wells Fargo, is the only
documentation proffered in a world where numerous
unconsented securitizations and rehypothecations occ­
ur as a normal course of business. Moreover, since

23

when does the government or its financial agent, fin­
ance a purchase of a security instrument without a
paper trail so its governmental actions can be
reviewed? Wells Fargo has not substantiated, its
alleged claims that Fannie is the note owner, and that
the security instruments have not been sold to and/or
rehypothecated one or more times to RMBS trusts,
hedge funds, the federal reserve and/or any other gov­
ernment entities by itself or former Wachovia. Why was
the loan never clearly endorsed over to Wells Fargo or
Fannie? Who owns the note and the right to enforce it?
Although this law allowing for third-party act­
ions is controversial, alternatively Wells Fargo still fa­
ils at standing. Under Florida law the 4th DCA coincideently set the standard in Elston/Leetsdale, LLC v.
CWCapital Asset Mgmt. LLC, 87 So. 3d 14 (Fla. 4th
DCA 2012), where it made it clear a servicer may only
be considered as a party to a foreclosure if (1) its prin­
cipal/real party in interest has joined in or (2) ratified
its conduct. Herein, Wells Fargo did not join the real
party in interest as a named party, nor did Wells Fargo
submit any substantive evidence to prove the real party
in interest ratified this action. Therefore, Wells Fargo
was never a real party in interest at the time this case
was filed nor at the time of judgement. Elston/Leetsdale outlined that the real party in interest must be
joined as a party unless the relationship between real
party in interest and plaintiff fits into one of these six
categories: 1) a personal representative; 2) an admin­
istrator; 3) a guardian; 4) a trustee of an express trust;
5) a party with whom or in whose name a contract has
been made for the benefit of another; or 6) a party
expressly authorized by statute to sue in that party’s
own name without joining the party for whose benefit
the action is brought. Fla. R. Civ. P. Rule 1.210(a).

24
Accordingly, Wells Fargo’s relationship with the real
party in interest is not one of these six categories, and
under Elston/Leetsdale it was required to join the real
party in interest, which it failed to do, depriving it of
standing to bring this action. The rule expressly lists
the types of agents that may sue in their own name
without joining the real party in interest which implies
the exclusion of other relationships. See Biddle v. State
Beverage Dept., 187 So. 2d 65, 67 (Fla. 4th DCA 1966)
(applying ‘[ejxpressio unius est exclusio alterius’—the
mention of one thing implies the exclusion of
another)(bold emphasis added).
Although Rule 1.210(a) does not expressly men­
tion ratification, the Florida district Courts have deci­
ded to follow the 3rd DCA in Kumar Corp. v. Nopal
Lines, Ltd., 462 So. 2d at 1185 (affidavits unequivocally
show that principal ratified and endorsed agent’s action
in bringing suit on principal’s behalf). Accordingly,
Wells Fargo failed to satisfy this second vital option to
prove standing, as it never produced any substantive
evidence from the real party in interest expressly auth­
orizing it bringing this foreclosure action. Since it is
mandatory a party must acquire standing before filing
suit, Wells Fargo’s hoodwinking of the Court at the on­
set with its purported standing, legal conclusions and
wrongful presumption of facts renders these proceed­
ings void ab initio. See Boyd v. Wells Fargo Bank, N.A.,
143 So. 3d 1128 (Fla. 4th DCA 2014) (reversing sum­
mary judgment of foreclosure because foreclosing len­
der failed to produce documentation establishing
that it had standing at the time it filed the fore­
closure complaint), (bold emphasis added).

25
Wells Fargo’s claims as agent also fail, because
such an allegation without allegations necessary to est­
ablish an agency relationship, is therefore a mere legal
conclusion that the Court should not have taken as
true. See Loan Co. u. Smith, 155 So. 2d 711 (Fla. 1st
DCA 1963) (holding that mere legal conclusions
are fatally defective unless substantiated by suff­
icient allegations of ultimate fact); Phelps v.
Gilbreth, 68 So. 2d 360 (Fla. 1953) (holding that alle­
gations of legal conclusions are of no legal effect
or significance and are generally ignored in the
construction and consideration of the pleadings
of which they are a part), (bold emphasis added). By
not providing any endorsement, assignment and/or
affidavit attached to the note from the real party in
interest transferring all rights thereto to satisfy neg­
otiation and to satisfy ratification under Florida law,
Wells Fargo was deprived of standing in this action.
Additionally, Wells Fargo cannot claim to be act­
ing as servicer for the note and owner of the mortgage,
as it is well established law that the mortgage follows
the note, but the note never follows the mortgage, so
Wells Fargo could not have owned the mortgage and
had standing to foreclose while claiming that Fannie
owns the note. See Carpenter u. Longan, 83 U.S. 271
(1872) “the note and mortgage are inseparable;
the former as essential, the latter as an incident.
An assignment of the note carries the mortgage
with it, while an assignment of the mortgage
alone is a nullity.” (bold emphasis added). The 4th
DCA concurred in Lizio v. McCullom, 36 So. 3d 927, 929
(Fla. 4th DCA 2010) “The party seeking foreclosure
must present evidence that it owns and holds the
note and mortgage in question in order to pro-

26

ceed with a foreclosure action.” (bold emphasis
added). Wells Fargo failed to satisfy standing under
Lizio, and its allegations clearly create a genuine issue
of material fact as to whether it owned and held the
note and mortgage under federal and Florida law, thus
depriving it of standing to foreclose. See Verizzo v. Bank
of New York, 28 So. 3d 976, 978 (Fla. 2d DCA 2010)
(providing that “there is a genuine issue of mat­
erial fact as to whether the Bank of New York
owns and holds the note and has standing to fore­
close the mortgage.”) (bold emphasis added). And
when doubt exists, (“It is well settled that a plaintiff in
a foreclosure case must demonstrate that it had
standing at the time the complaint was filed.”)
McClean v. JPMorgan Chase Bank Nat’l Ass’n, 79 So.
3d 170, 173 (Fla. 4th DCA 2012). (bold emphasis
added). Accordingly, “Where the defendant denies
that the party seeking foreclosure has an owner­
ship interest in the mortgage, the issue of owner­
ship becomes an issue the plaintiff must prove.”
See Lizio\ Carapezza v. Pate, 143 So. 2d 346, 347 (Fla.
3d DCA 1962). (bold emphasis added). Longan concurs
with the use of Mortgage Electronic Registration Sys­
tems (MERS) herein, as it is well known the mortgage
and note were immediately separated and in fact the
original “wet seal documents” were most likely des­
troyed upon electronic scanning and transfer.
Therefore, this Court should grant certiorari to
address and rectify these vital third party and tainted
unlawful title issues and the facially void judgements.
IV. This Court Should Grant Certiorari To Add­
ress Violations Of SEC Securities Laws & NE­
MO DAT QUOD NON HABET With Numerous
Sales &/or Pledges Of Americans Homes With-

27

out Their Consent, Knowledge or Benefit And
Address The Fact These Were Premeditated
Securities Transactions Not Conventional
Mortgages As Advised
One of the greatest issues that led to the housing
crisis was the failures is creation, supervision and reg­
ulation of mortgage backed securities. These security
instruments are allowed to be sold and resold multiple
times to different parties without any knowledge, con­
sent or benefit from the homeowners whose homes are
traded on the open market. In fact, many of these ass­
ets, including those that inevitably became toxic, were
purchased with printed taxpayer dollars by the federal
reserve. The problem with these instruments is they
are not conventional mortgages as unsuspecting homeowners are led to believe, they are in actuality premed­
itated securities transactions, as the originators are
calculating and preparing for the inclusion of the loans
on Americans homes into these RMBS or Residential
Mortgage Backed Securities even before the closing of
the loans. These undisclosed securities transact­
ions are in direct violation of Securities and Exchange
Commission (SEC) Rule 10b-5 targeting securities fra­
ud authorized under § 10(b) of the Securities Exchange
Act of 1934, and codified at 17 C.F.R § 240. 10b-5 Emp­
loyment of manipulative and deceptive devices. This Act
was adopted to provide more transparency in secondary
securities markets, similar to the current RMBS mar­
kets, in response to the stock market crash of 1929.
Wells Fargo and its predecessor Wachovia clearly vio­
lated this rule by employing a scheme to defraud the
Barone’s into believing they were entering into trad­
itional mortgage contracts when in fact they were un­
disclosed/secret securities transactions, by making
untrue statements or omitting material facts and

28

by engaging in any act, practice or course of bus­
iness which operates as a fraud or deceit, (bold
emphasis added). As part of this securities fraud, Wells
Fargo securitized and rehypothecated the loan herein
multiple times collecting unjust benefits by selling
and/or pledging the property it did not possess or have
a right to in violation of NEMO DAT QUOD NON
HABET ("no one gives what they don’t have” ).
Wells Fargo failed to disclose these secret secondary
market securities transactions, including numerous
securitizations, rehypothecations, secondary default in­
surance and derivatives transactions, all of which were
not authorized by the Barone’s or the contracts, creat­
ing multiple breaches. These numerous breaches were
part of a calculated scheme to defraud the Court, the
Barone’s and millions of other unsuspecting Americans
of their property, and essentially voids the contracts.
It is clear the courts in millions of Americans un­
lawful foreclosures have failed at preventing manifest
injustice. This Court asserts the need for justice to pre­
vail in this system set up to protect the people and pre­
serve the public’s trust, and Mrs. Barone prays on that.
CONCLUSION
For all these reasons, the Court should grant this
petition.
^---- \
Dated: August 25th, 202'
By:

QhMJs
PO
Lighthouse Point, FL 33074
954-644-9900
Pro Se Petitioner

